BRIAN E. FROSH
Attorney General

ELIZABETH F. HARRIS
Chief Deputy Attorney General
CAROLYN QUATTROCKI
Deputy Attorney General

STATE OF MARYLAND

OFFICE OF THE ATTORNEY GENERAL
FACSIMILE NO.
(410) 576-6955

WRITER’S DIRECT DIAL NO.
(410) 576-6398
Email: asnyder@oag.state.md.us

December 31, 2020
By Electronic Filing Only
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Maryland Shall Issue, Inc., et al. v. Lawrence Hogan, No. 20-855

Dear Mr. Harris:
The petition for a writ of certiorari in this case was docketed on December 29, 2020.
In accordance with Rule 30.4, respondent moves to extend by 60 days the time in which to
respond to the petition. This extension would permit the response to be filed on or before
March 29, 2021.
Respondent seeks an extension of time to accommodate the litigation schedule of
undersigned counsel, which is entering a particularly active period and is complicated by
a recently filed Fourth Circuit appeal and motion for appellate injunction involving a
challenge to Maryland’s COVID-19 orders. Counsel for petitioners has graciously
consented to this request.
Thank you for your attention to this matter.
Sincerely,

Adam D. Snyder
Assistant Attorney General
Counsel for Respondent
cc:

Mark William Pennak, Esquire

200 Saint Paul Place ❖ Baltimore, Maryland, 21202-2021
Main Office (410) 576-6300 ❖ Main Office Toll Free (888) 743-0023
Consumer Complaints and Inquiries (410) 528-8662 ❖ Health Advocacy Unit/Billing Complaints (410) 528-1840
Health Advocacy Unit Toll Free (877) 261-8807 ❖ Homebuilders Division Toll Free (877) 259-4525 ❖ Telephone for Deaf (410) 576-6372
www.marylandattorneygeneral.gov

